Management Advisory 05-01
Page 2 of 10

constraints have limited its support of the legacy servers beyond routine maintenance and
operations. For this reason, OCIO has encouraged its customer community to accelerate
the upgrading of their publicly accessible websites so that they can be moved to the newer
servers. The customer community reports that it lacks the resources to do so. Because
resource constraints will make legacy servers a necessary component of OCIO operations
for the near term, we recommend that OCIO work with its customer community to
identify a strategy for timely backups of legacy servers; inform customers how website
expansions affect backups; clarify when or if it will add spare drives to servers under its
control; clarify how it will test the restore process; and revise the timeframe for testing the
recovery plan for one of the clustered webservers. Further details on our findings are
provided below.

Nature and Impact of the Server Crash

Our review disclosed that the Web4 server crashed when two of its four hard drives failed
in succession. The server was an older model that hosted some of the Institution’s public
websites and applications that were not in compliance with the new standards developed
by OCIO.1 The Web4 server was configured with built-in redundancy so that if one of the
four hard drives failed, the data would migrate and be shared with the remaining drives
until the failed drive could be replaced. 2 If a second drive failed, however, the system
could not automatically rebuild itself and the data could not be shared between the two
remaining drives.

When the server failed, an audio alarm sounded, alerting OCIO that there had been a
serious malfunction in the secured room that housed the server. The OCIO staff member
who examined the Web4 server in response to the alarm saw that the hard drive failure
                       3
indicator light was on. He went to his office to retrieve a replacement hard drive and on
his return to the secured room saw that a second drive had failed.

The Web4 server was sent to a private company to attempt a recovery of the data. The
company noted that in attempting to rebuild the system, OCIO staff had overwritten data
on one of the remaining drives, inadvertently wiping out whatever data had been
recorded. Although the exact cause of the drive failures could not be determined4, the age
of the server and its heavy use may have been contributing factors. The server was eight
months beyond its three-year warranty period. OCIO officials told us that because they
operate on a four-year replacement cycle, they accept a planned risk on expired
warranties. We noted that 8 of the 31 servers managed by OCIO’s Web Server Division

1
    These standards include Smithsonian Directive 920, Life Cycle Management, and OCIO’s Technical
    Reference Model, IT-940-01.
2
    Web4 is a RAID5 server. RAID stands for “redundant array of independent disks.” It is a way of storing
    the same data in different places on multiple hard drives.
3
    OCIO staff in the Operations Center would check the indicator lights on all of the servers in the morning.
     The alarm indicating a failure sounded before the Operations Center staff conducted its check.
4
     The engineers at the company could not determine the cause of the failure.
Management Advisory 05-01
Page 3 of 10

are out of warranty. Had the customer community whose operations were hosted on the
Web4 server been aware that the server was out of warranty, they might have been better
prepared to address the risk of the server failure with OCIO.

When the server failed, over 30 websites5 were temporarily lost, for two to six days.6 These
sites included public web pages and services, such as the Archives of American Art and the
History Wired site of the National Museum of American History, and Institution intranet
sites, such as the National Museum of the American Indian’s intranet and the Woodrow
Wilson International Center’s site.

OCIO was able to restore all of the downed websites by February 15, 2005 from backup
copies maintained by OCIO staff, except for the Smithsonian Online Academic
                                     7
Appointments (SOLAA) database. SOLAA, which provides mission-critical support to
NMNH’s Research Training Program, had not been backed up for approximately 18
months. Program staff ultimately located a December 2004 copy of the database from a
contractor, but it was insufficient to allow the program to proceed. As a result, NMNH
cancelled the 2005 Research Training Program and the planned fundraising efforts to
celebrate the program’s 25th anniversary. NMNH officials told us the 2006 program may
also be in jeopardy if the SOLAA application is not recreated by the start of the program
year.

Given that the Web4 and other legacy servers like it may have reliability problems, it is
critical that adequate backups be made so that data is not irretrievably lost when a server
fails. However, OCIO, which is responsible for backing up the servers over which it
exercises control, mistakenly had not backed up the SOLAA database. OCIO officials also
stated that they lacked the resources to make the backups without temporarily removing
the system from production. To make the backups, data on the Web4 server would have
                                                             8
to be sent to OCIO’s server, which resides behind a firewall, where the data is copied and
retransmitted back to the Web4 server. This would have required that the SOLAA site be
taken down for a short period of time. We found that OCIO performs this type of
backup for other systems it operates. While there is a temporary disruption of service,
OCIO posts notices to announce the backup schedule to alert users that the system will be
unavailable.

Moreover, on this and other legacy servers, customers were allowed to expand their
individual websites with new data and features, which resulted in more data needing to be

5
    The larger sites that were hosted on the Web4 server included Affiliations, SOLAA, Archives of American
    Art, HistoryWired, Smithsonian Institution Libraries, Smithsonian Press’s Smithsonian Legacies, and the
    Woodrow Wilson International Center.
6
    All sites but one were returned to service by February 15, 2005.
7
    Data from the National Museum of the American Indian was also irretrievably lost, but it was not deemed
    mission-critical.
8
    A firewall is a system designed to prevent unauthorized access to or from a private network such as an
    intranet.
Management Advisory 05-01
Page 4 of 10

backed up. OCIO committed to its customer community on its website that it would be
responsible for maintaining the equipment and backing up data under its control.
However, OCIO staff told us that they had been experiencing problems meeting the
backup schedules requested by its customer community. These schedules largely fell
within non-production hours (8:00 p.m. to 8:00 a.m.).

Preventative Measures Planned by OCIO

In its root cause analysis report, OCIO outlined a number of measures it plans to take to
prevent or otherwise mitigate future service disruptions and data losses on legacy servers.
Since issuing the report, OCIO has taken many positive steps to implement these
measures. For example, OCIO adopted new policies in March 2005 requiring that: (1)
no data be excluded from standard backups of OCIO-maintained servers; (2) any failed
hard drives removed from servers be kept pristine until data recovery has occurred; and
(3) when a data loss occurs, all of the server’s hard drives be sent for recovery within one
day.

Moreover, OCIO is making a strong effort to communicate with and involve the
customer community in preventing and mitigating such problems in the future. OCIO is
now posting weekly backup status reports on the Institution’s intranet (Prism) and has
updated its “frequently asked questions” page on Prism to include recommendations on
how to protect certain production systems. OCIO has also posted on Prism a contact list
and other key information for servers that it maintains and will record and track future
prevention actions through completion.

However, a number of other measures described in its report have not been or cannot be
implemented, primarily because of resource constraints. For example, the report stated
that OCIO will:

      •   Reconfigure all RAID5 servers under its control by April 1, 2005, to add a fifth
          drive as a “hot spare” to allow automatic rebuilding of drives in the event of two
          drives failing. OCIO officials told us that they presently do not have the resources
          to accomplish this because it would require a rebuild of each server down to the
          operating system level. Moreover, such a task would direct their limited resources
          to the legacy servers rather than to the newer technologies and the newer systems
          they are developing.

      •   Test the restore process9 at the request of owners of systems and applications, and
          then have owners test and verify the accuracy of the restoration. OCIO staff noted
          that such a process would require exactly mirroring one system onto another
          system, and OCIO lacks the legacy hardware needed to perform the restoration --

9
    To restore is to copy backup files from secondary storage to hard disk to return data to its original
    condition if data has been damaged or to copy or move data to a new location.
Management Advisory 05-01
Page 5 of 10

            hardware that is becoming obsolete and, therefore, is not worth purchasing.
            Moreover, members of the customer community we interviewed were not sure
            that if they made such a request it would be acted upon, or whether OCIO could
            meet the demand if several customers simultaneously requested such service. The
            customer community expressed these concerns at the draft stage of OCIO’s report,
            but the final report does not address them.

       •    Test the recovery plan10 for one of the clustered web servers in April 2005. As of
            May 9, 2005, OCIO had not done so, although the customer community told us
            that such an exercise was important to regain their confidence.




10
     A recovery plan consists of the precautions taken so that the effects of a disaster (e.g. loss of computers
     and data) will be minimized, and the organization will be able to either maintain or quickly resume
     mission-critical functions.
Management Advisory 05-01
Page 6 of 10

Conclusions and Recommendations

A substantial number of legacy servers managed by OCIO are operating on expired
warranties and are likely to face the same vulnerabilities as the Web4 server. OCIO has
accepted server failure as an operating risk because resource constraints have limited its
support of the legacy servers beyond routine maintenance and operations.

Given that additional failures of the legacy servers are likely, it is imperative that OCIO
perform timely backups of customer data and applications so that they can be restored in
the event of a server failure. While OCIO has identified preventative measures it will take
to mitigate future service disruptions and data losses, it has not addressed how it will
overcome current delays in performing timely backups of customer data on servers that it
manages. It will also need to address with customers how expansion of the customers’
individual websites will affect OCIO’s ability to meet data backup requirements and
whether controls should be imposed on such expansions.

Further, other measures aimed at providing additional drives and testing the restore and
recovery process may not be implemented as promised or may transfer responsibility to
the customers for services that OCIO should provide. Because legacy servers will remain
an essential component of OCIO operations for the foreseeable future, OCIO will need to
provide its customer community assurances that any lost data or applications on the
legacy servers can be adequately recovered. To provide these assurances, we recommend
that OCIO:

   1. Develop a plan, in coordination with its customers that describes how it will
      ensure that timely backups on OCIO-maintained servers are performed.

   2. Inform customers on how further website expansions on the legacy servers will
      affect scheduled backups and what controls should be exercised over such
      expansions.

   3. Clarify whether RAID5 servers under its control will be reconfigured to add spare
      drives and, if so, develop a timeframe for completing such actions.

   4. Clarify how it would test the restore process for customer applications and
      systems given that it lacks the legacy hardware required for such tests.

   5. Provide a revised timeframe for testing the recovery plan for the clustered web
      server it reported it would test in April 2005.
Management Advisory 05-01
Page 7 of 10

Management Comments and Office of Inspector General Response

We discussed this report with OCIO officials, and their written comments (attached to
this report) have been incorporated, as appropriate. OCIO concurred with the report’s
findings, conclusions, and recommendations and identified corrective actions to prevent
or otherwise mitigate future service disruptions and data losses on legacy servers. By June
30, 2005, OCIO will develop a plan for web server infrastructure operations that will
address timely data backups and the reconfiguration of RAID5 web servers to use hot
spares. At an upcoming monthly Webmasters meeting OCIO also will discuss its plans
for an automated backup solution, the resource requirements associated with website
expansions, and a test of the restore process for customer applications and systems.
Finally, by January 2006, after changes to enhance the redundancy of the web server
infrastructure have been completed, OCIO will test the recovery plan for the clustered
web server which was originally to be tested in April 2005.

OCIO’s proposed actions are responsive to our recommendations, and once
implemented, should address the issues raised in this report.
Management Advisory 05-01
Page 8 of 10

Management Response
Management Advisory 05-01
Page 9 of 10

Management Response (continued)
Management Advisory 05-01
Page 10 of 10

Management Response (continued)
